NO. 19-_____

In the
Supreme Court of the United States
LORI MADDEN-GRAMMER,

Petitioner,
v.

INDUSTRIAL CLAIM APPEALS OFFICE;
POUDRE VALLEY HOSPITAL; and
COLORADO HOSPITAL ASSN. TRUST,

Respondents.

On Petition for Writ of Certiorari to the
Colorado Court of Appeals
PETITION FOR WRIT OF CERTIORARI

BRADLEY R. IRWIN

COUNSEL FOR PETITIONER

IRWIN FRALEY, PLLC

6377 S. REVERE PARKWAY, SUITE 400
CENTENNIAL, CO 80111
(303) 999-9000
BIRWIN@COLORADOLAWYERS.COM
OCTOBER 11, 2019
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

i
QUESTION PRESENTED
Whether Colorado’s Medical Utilization Review
process set forth in Section 8-43-501, et seq. of the
Colorado Revised Statutes deprives claimants of
their statutorily-created property interest without due
process of law in violation of the Fourteenth Amendment of the Federal Constitution.

ii

LIST OF PROCEEDINGS BELOW
JUDICIAL PROCEEDINGS
Colorado Supreme Court
Supreme Court Case No: 2019sc45

Lori Madden-Grammer, Petitioner, v. Colorado Hospital Association Trust, Poudre Valley Hospital, and
Industrial Claim Appeals Office, Respondents.
Opinion Date: July 29, 2019
Mandate Issued: August 1, 2019
_____________________
Colorado Court of Appeals
Court of Appeals No. 17ca2066

Lori Madden-Grammer, Petitioner, v. Industrial Claim
Appeals Office of the State of Colorado; Poudre Valley
Hospital; and Colorado Hospital Association Trust,
Respondents.

Opinion Date: December 13, 2018
Rehearing Denied: January 10, 2019
_____________________

iii

ADMINISTRATIVE PROCEEDINGS
Industrial Claims Appeal Office
In the Matter of the Request for Utilization Review:
CHA Trust, Insurer, v. Lori Madden-Grammer,
Claimant, Concerning the Care Provided by:
Brian Lemper, D.O., Provider.
Case Number: 2017CA2066
Final Order Date: November 14, 2017
_____________________
Office of Administrative Courts, State of Colorado
Workers Compensation
In the Matter of the Request for Utilization Review:
CHA Trust, Insurer, v. Lori Madden-Grammer,
Claimant, Concerning the Care Provided by:
Brian Lemper, D.O., Provider.
U.R. No: 16-05
Final Order Date: May 3, 2017

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED .......................................... i
LIST OF PROCEEDINGS BELOW ........................... ii
TABLE OF AUTHORITIES ...................................... vi
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW ................................................... 1
JURISDICTION.......................................................... 1
STATUTORY PROVISIONS INVOLVED ................. 2
STATEMENT OF THE CASE .................................... 9
REASON FOR GRANTING THE PETITION ......... 11
CONCLUSION.......................................................... 15

v
TABLE OF CONTENTS – Continued
Page
APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the Supreme Court of Colorado Denying
Petition for Writ of Certiorari
(July 29, 2019) .................................................... 1a
Opinion of the Colorado Court of Appeals
(December 13, 2018) ........................................... 2a
Mandate of the Colorado Court of Appeals
(August 1, 2019) ............................................... 18a
Final Order of the Industrial Claim Appeals Office
(November 14, 2017) ........................................ 19a
REHEARING ORDER
Order of the Colorado Court of Appeals Denying
Petton for Rehearing (January 10, 2019) ........ 33a

vi
TABLE OF AUTHORITIES
TABLE OF AUTHORITIES

Page

CASES

Allison v. Indus. Claim Appeals Office,

884 P.2d 1113 (Colo. 1994) ................................ 12

Armstrong v. Manzo, 380 U.S. 545,

14 L.Ed.2d 62, 85 S.Ct. 1187 (1965) ................. 13

Colo. Comp Ins. Auth. v. Nofio,

886 P.2d 714 (Colo. 1994) ............................ 12, 13

Mathews v. Eldridge, 424 U.S. 319,

47 L.Ed.2d 18, 96 S.Ct. 893 (1976) ............. 13, 14

Whiteside v. Smith,

67 P.3d 1240 (Colo. 2003) ............................ 12, 13

CONSTITUTIONAL PROVISIONS
U.S. Const. amend. XIV ..................................... passim
STATUTES
28 U.S.C. § 1257(a) ...................................................... 1
C.R.S. § 8-43-501, et seq................................... passim

1

PETITION FOR A WRIT OF CERTIORARI
Bradley R. Irwin, on behalf of Lori MaddenGrammer, respectfully petitions for a writ of certiorari
to review the judgment of the Colorado Court of
Appeals.

OPINIONS BELOW
The unpublished opinion of the Colorado Court of
Appeals at issue, dated December 13, 2018, is attached
below as App.2a. The Supreme Court of Colorado
denied Petitioner’s for a writ of certiorari to review
this decision on July 29, 2019 (App.1a).

JURISDICTION
The judgment of the Colorado Court of Appeals
was entered on December 13, 2018. A petition for rehearing was denied on January 10, 2019 (App.33a). A
petition for a writ of certiorari to the Supreme Court
of Colorado was denied on July 29, 2019. The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a)
on the grounds that the state statute at issue herein,
as interpreted by the Colorado Court of Appeals, is
repugnant to the Constitution of the United States.

2

STATUTORY PROVISIONS INVOLVED
Col. Rev. Stat. Section 8-43-501, et seq. of the
Colorado Revised Statutes establishes the Medical
Utilization Review process for Workers Compensation claimants that is at issue in this petition, and
states as follows:
(1) The general assembly hereby finds and determines that insurers and self-insured employers
should be required to pay for all medical services
pursuant to this article which may be reasonably
needed at the time of an injury or occupational
disease to cure and relieve an employee from the
effects of an on-the-job injury. However, insurers
and self-insured employers should not be liable to
pay for care unrelated to a compensable injury or
services which are not reasonably necessary or not
reasonably appropriate according to accepted professional standards. The general assembly, therefore,
hereby declares that the purpose of the utilization
review process authorized in this section is to provide a mechanism to review and remedy services
rendered pursuant to this article which may not be
reasonably necessary or reasonably appropriate
according to accepted professional standards.
(2) (a) An insurer, self-insured employer, or claimant may request a review of services rendered
pursuant to this article by a health care provider. Requests for utilization review shall be
submitted on forms promulgated by the director
by rule. At the time of submission of a review
request, the requester shall pay the division a fee

3
prescribed by the director by rule. Such fee shall
cover the division's administrative costs and the
costs of compensating utilization review committee members. If a claimant is successful in a
utilization review case brought pursuant to this
section, the division shall reimburse the fee
charged pursuant to this paragraph (a) and assess
it against the insurer or self-insured employer.
The state treasurer shall credit fees collected
pursuant to this section to the utilization review
cash fund, which fund is hereby created. Moneys
in the utilization review cash fund are continuously appropriated to the division for the purpose
of administering the utilization review program
and may not revert to the general fund at the
end of any fiscal year. The division shall mail to
any claimant, insurer, or self-insured employer a
notice that a case is to be reviewed and that the
claimant may be examined as a result of such
review. The claimant, insurer, or self-insured
employer has thirty days from the date of
mailing of such notice to examine the medical
records submitted by the party who requested
the review and may add medical records to the
utilization review file that the party believes
may be relevant to the utilization review. The
division shall maintain a special file for utilization
review cases. Such file shall be accessible only to
interested parties in a utilization review case
and shall not otherwise be open to any person.
(b) Prior to submitting a request for a utilization
review pursuant to this section, an insurer, selfinsured employer, or claimant shall hire a licensed
medical professional to review the services ren-

4
dered in the case. A report of the review shall be
submitted with all necessary medical records,
reports, and the request for utilization review.
(c) A claimant may request a utilization review
pursuant to this section if the claimant has been
refused a request pursuant to section 8-43-404
(5) to have a personal physician or chiropractor
attend the claimant. A claimant requesting a
utilization review pursuant to this paragraph (c)
shall file the request on forms promulgated by
the director by rule and shall pay the fee required by paragraph (a) of this subsection (2).
(d) For purposes of this section only, "medical
records" means documents and transcripts of
information obtained from a patient or his or her
medical professional that are related to the
patient's medical diagnosis, treatment, and care.
(e) When an insurer, self-insured employer, or
claimant requests utilization review, no other
party shall request a hearing pursuant to section
8-43-207 until the utilization review proceedings
have become final, if such hearing request concerns
issues about a change of physician or whether
treatment is medically necessary and appropriate.
(f) Once a utilization review proceeding has
become final and no longer subject to appeal, the
final disposition of the issues in such proceeding
shall be binding on the parties and preclude a
contrary ruling on such issues in a subsequent
hearing under section 8-43-207 unless a preponderance of evidence is shown.

5
(3)(a) The director, with input from the medical director serving pursuant to section 8-42-101 (3.6) (n),
shall appoint members of utilization review committees for purposes of this section and section 842-101 (3.6). The director shall establish committees based on the different areas of health care
practice for which requests for utilization review
may be made. The director shall establish the
qualifications for members of the different committees and the areas of health care practice in
which each such committee shall conduct requested
utilization reviews. Cases of requested utilization
review shall be referred to committees appointed
pursuant to this subsection (3) by the director
based upon the areas of health care practice for
which each committee is appointed.
(b) Each committee established pursuant to paragraph (a) of this subsection (3) shall be composed
of three members. Committee members shall be
compensated for their time by the division out of
moneys in the utilization review cash fund,
created in paragraph (a) of subsection (2) of this
section. Any member of a committee appointed
pursuant to this subsection (3) shall be immune
from criminal liability and from suit in any civil
action brought by any person based upon an
action of such a committee, if such member acts
in good faith within the scope of the function of
the committee, has made reasonable effort to
obtain the facts of the matter as to which action
is taken, and acts in the reasonable belief that
the action taken is warranted by the facts. The
immunity provided by this paragraph (b) shall
extend to any person participating in good faith

6
in any investigative proceeding pursuant to this
section.
(c) (I) For each case, a committee may recommend by majority vote of such committee
that no change be ordered or that a change
of provider be ordered.
(II) A committee may also, by unanimous vote,
recommend that the director order that
payment for fees charged for services in the
case be retroactively denied.
(III) A committee may also, by unanimous
vote, recommend that the director order
that a physician's accreditation status
under section 8-42-101 (3.6) be revoked.
(d) In preparing and issuing an order in any case,
the director shall review and give great weight
to the reports and recommendations of the committee.
(e) In appropriate cases pursuant to this section
and section 8-42-101 (3.6), the director may order
that an insurer, employer, or self-insured employer
be permitted to deny reimbursement to a provider for any medical care or services rendered
to a claimant; and such order may be effective
for up to three years. Bills for services rendered
during the effective period of any such order
shall be unenforceable and shall not result in
any debt of the claimant. In deciding whether to
issue any such order, the director shall give
great weight to the fact that:
(I) The provider has, within any two-year
period, been the subject of two or more orders

7
removing the provider from the role of authorized treating physician; or
(II) The provider has, within any two-year
period, been the subject of two or more
orders retroactively denying the payment of
the provider's fees; or
(III) The provider has, within any two-year
period, been the subject of two or more orders
either retroactively denying the payment of
the provider's fees or removing the provider
from the role of authorized treating physician.
(4) If the director orders pursuant to subsection (3)
of this section that a change of provider be made
in a case or that the physician's accreditation
status be revoked, the claimant, insurer, or selfinsured employer shall have seven days from
receipt of the director's order in which to agree
upon a level I provider. If the claimant, insurer,
or self-insured employer can not reach agreement
within the seven day time period, the director
shall select three providers. A new provider shall
be chosen from the three providers so selected by
the party who was successful in the request for
review. If no appeal is filed, the successful party
shall notify the division of the name of the new
provider within seven days of the selection of the
three potential providers. If the new health care
provider is not selected within such seven days,
the director shall select the provider.
(5) (a) Any party, including the health care provider,
may appeal to an administrative law judge for
review of an order specifying that no change

8
occur or that a change of provider be made with
respect to a case. Such review shall be limited to
the record on appeal. The findings of a utilization
review committee regarding the change of provider in a case shall be afforded great weight by
the administrative law judge in any proceeding.
A party disputing the finding of such utilization
review committee shall have the burden of overcoming the finding by clear and convincing evidence.
(b) If the director has entered an order specifying
that the payment of fees in the case be retroactively
denied, or permitting an insurer, employer, or selfinsured employer to deny payments for medical
services or care rendered pursuant to subsection
(3)(e) of this section, the health care provider
may request a de novo hearing before an administrative law judge by filing an application for
hearing within thirty days from the date of the
certificate of mailing of the order. In a hearing
held pursuant to this paragraph (b), the record
upon which the director based the order shall be
admissible in evidence. The findings of the utilization review committee regarding the retroactive
denial of payment of fees in a case shall be
afforded great weight by the administrative law
judge in any proceeding. A party disputing the
finding of such utilization review committee
shall have the burden of overcoming the finding
by clear and convincing evidence.
(c) Any appeal filed pursuant to this subsection
(5) must be filed within forty days from the date
of the certificate of mailing of the director's order.

9
(d) Any party dissatisfied with an order entered
by an administrative law judge pursuant to paragraph (a) of this subsection (5) may file a petition to review the order pursuant to section 8-43301.

STATEMENT OF THE CASE
The Colorado Court of Appeals ruled that Petitioner was not deprived of a property interest without due process where she was deprived of the only
available source of treatment for her Complex Regional
Pain Syndrome via a process established by state
statute that deprived her of any opportunity to be
heard on the subject. This ruling contravenes Petitioner’s right to due process under the Fourteenth
Amendment of the Federal Constitution before she can
be deprived of a property interest by her state.
This case arises out of a worker’s compensation
claim in which the Petitioner sustained serious injuries
during a one-car accident that occurred in 1988. These
injuries eventually caused her to develop a condition
known as Complex Regional Pain Syndrome (CRPS), a
condition that causes Ms. Grammer to suffer with
constant, unrelenting, and excruciating pain.
While there is no known cure for CRPS, there are
some treatments that have provided Ms. Grammer
relief from her constant and debilitating pain. Ms.
Grammer was receiving one form of CRPS treatment
known as Platelet Rich Plasma (PRP) therapy, which
was virtually the only treatment (after almost 29

10
years of pain), which would relieve the effects of her
industrial injury.
In 2016, Respondent-Insurer initiated a Medical
Utilization Review (MUR) of Ms. Grammer’s physician
who was providing her the PRP treatment. The result
of the MUR was to de-authorize Ms. Grammer’s physician and retroactively deny payment for his treatment, leaving Ms. Grammer without any PRP treatment or any relief from her ongoing pain. At no time
during the MUR process, or the appeal that followed,
was the Ms. Grammer provided with a hearing, or an
opportunity to present evidence on her behalf, before
the PRP treatment was terminated.
On April 13, 2016, Respondent-Insurer requested
a Medical Utilization Review (MUR) concerning the
care provided to the Ms. Grammer, by her authorized
treating physician, Dr. Brian Lemper. Thereafter,
the Director of the Division of Workers’ Compensation
(DOWC) appointed a Utilization Review Panel (UR
Panel), consisting of three medical practitioners, to
review medical records submitted by the parties, pursuant to C.R.S. § 8-43-501. Based on the findings of
the UR Panel, the Director issued an Order on September 30, 2016, requiring a change of provider and
retroactively denying payment for all medical treatment provided by Dr. Lemper after August 20, 2015.
Claimant filed a timely appeal of the Director’s
Order on October 11, 2016. The appeal was assigned
to Administrative Law Judge Edwin L. Felter, Jr. (ALJ
Felter), on May 1, 2017. Based solely on a review of
the record, ALJ Felter issued an Order on May 3, 2017,
affirming the Order of the Director of the DOWC.

11
Claimant filed an appeal to the Industrial Claim
Appeals Office (ICAO) seeking both a review of ALJ
Felter’s Order in this matter and raising constitutional
issues. The ICAO issued its Final Order on October
24, 2017, affirming the Director’s Utilization Review
Order and denying Claimant’s appeal. Claimant filed
an appeal to the Colorado Court of Appeals. The Court
issued its Order affirming the Order of the ICAO on
December 13, 2018. Claimant filed a Petition for Rehearing, which was denied, and thereafter filed a
petition for a writ of certiorari to the Supreme Court
of Colorado, which was also denied.
At no time was Petitioner provided with any
hearing during the Utilization Review process during
which she could present evidence, cross-examine
witnesses, or call any expert witnesses in her defense.
While a hearing is offered to the Claimant’s physician
during a Utilization Review, at no time does the
Claimant have this same right. As such, the Medical
Utilization Review process, as stated in C.R.S. § 8-43501, et seq., deprives the Claimant of her statutorilycreated property interests without due process of
law, in violation of the Fourteenth Amendment, and
is therefore unconstitutional.

REASON FOR GRANTING THE PETITION
This petition should be granted because the state
court of appeals’ decision is wrong, and the question
presented warrants review.

12
All workers compensation claimants in Colorado
have a statutorily-created property interest in the
continued receipt of medical treatment. Whiteside v.
Smith, 67 P.3d 1240 (Colo. 2003). The General Assembly created the substantive right to workers’ compensation benefits, and the Colorado Workers’ Compensation
Act defines this property interest for injured workers
in Colorado. Allison v. Indus. Claim Appeals Office,
884 P.2d 1113, 1119 (Colo. 1994). This substantive
right to workers’ compensation benefits is a constitutionally protected property interest. Id.; Colo. Comp
Ins. Auth. v. Nofio, 886 P.2d 714, 719 (Colo. 1994).
The Court of Appeals Ruling alluded to a contradiction between the Colorado Supreme Court’s decisions is Nofio (Colo. 1994) and Whiteside (Colo. 2003).
Id. Specifically, in Nofio, the Court held that an injured
worker is not entitled to a de novo hearing where the
worker’s compensation benefits “have been changed,
not terminated.” Nofio, Id. at 719. The Court in Nofio
also held that, an injured worker “has no protected
property interest in receiving care from a specific
health care provider or in receiving a particular type
of treatment.” Nofio, Id. at 720.
However, in its subsequent decision in Whiteside,
the Court held that all workers’ compensation benefits
are a protected property interest. Whiteside, Id. at 1247.
In fact, this subsequent interpretation of medical
benefits under the Colorado Workers’ Compensation
Act is the only interpretation that makes sense—i.e.,
the only possible way for an injured worker to receive
medical treatment, or any particular type of treatment, is through a specific health care provider.

13
Once a property interest has been established by
statute, as is the case here, the Fourteenth Amendment
constrains the government from depriving people of
their property interest without due process. See, e.g.,
Nofio, 886 P.2d at 719, (“A claimant who has been
awarded benefits in a workers’ compensation case is
entitled to procedural due process before those benefits
may be terminated.”). See also Whiteside, supra at 1248.
The fundamental requirement of due process is
the opportunity to be heard “at a meaningful time and
in a meaningful manner.” See, Mathews v. Eldridge,
424 U.S. 319, 333, 47 L.Ed.2d 18, 96 S.Ct. 893 (1976)
(citing Armstrong v. Manzo, 380 U.S. 545, 552, 14
L.Ed.2d 62, 85 S.Ct. 1187 (1965)).
In this case, as correctly stated by the Court of
Appeals, at no time during the entire Medical Utilization Review process (as stated in C.R.S. § 8-43-501,
et seq.), does a claimant have the right or opportunity to be heard. The statute is devoid of any hearing
process whereby a claimant is allowed to question
witnesses, offer testimony and evidence, or to respond
to the opinions of the UR Panel physicians, the Director before they issue an Order, or even on appeal
before an ALJ. This amounts to a violation of the
claimants’ Fourteenth Amendment rights with regard
to the procedural due process required to affect a property interest such as their workers’ compensation medical benefits.
This leaves the Claimant with only the right to a
review of the record by an ALJ in which they are
allowed to “submit their respective positions in writing.”
(CF, p. 252). This certainly would not satisfy the fundamental requirement of due process by giving the

14
Claimant an opportunity to be heard “at a meaningful
time and in a meaningful manner.” See, Mathews,
supra at 333. At no time during this Medical Utilization
Review process was the Claimant allowed to present
any testimony or question the UR Panel physicians
regarding what documents they reviewed, their opinions
and conclusions, or even their qualifications to render
an expert medical opinion related to the treatment of
CRPS patients or PRP therapy.
To make matters even worse, in the Conclusions
of Law contained in the Order dated May 3, 2017, ALJ
Felter states as follows: “Conversely, the Claimant
failed to prove, by clear and convincing evidence, that
Dr. Lemper’s treatment of the Claimant was appropriate according to accepted professional standards.”
(CF, p. 262). This statement begs the question of how
it would be possible for the Claimant to “prove” anything, let alone by “clear and convincing evidence,” if
she has no opportunity for a hearing or any meaningful way to be heard.
To take away the Claimant’s medical treatment
from Dr. Lemper, or any other physician, and deprive
the Claimant of her property interest in ongoing
workers’ compensation medical treatment without due
process violates the Fourteenth Amendment. This issue
warrants review because if the Colorado Court of
Appeals ruling is allowed to stand, all Colorado Workers’ Compensation claimants will continue to suffer a
depravation of due process. In the case of the present
Petition, Ms. Grammar, this deprivation of due process
has resulted and may continue to result in her
having to live in constant excruciating pain for which

15
effective treatment is available and to which she is
entitled as a property interest under state statute.

CONCLUSION
For the reasons stated herein, Petitioner respectfully requests that the Court grant certiorari to review
the decision below.
Respectfully submitted,
BRADLEY R. IRWIN

COUNSEL FOR PETITIONER

IRWIN FRALEY, PLLC

6377 S. REVERE PARKWAY, SUITE 400
CENTENNIAL, CO 80111
(303) 999-9000
BIRWIN@COLORADOLAWYERS.COM
OCTOBER 11, 2019

